Before the Committee on Transportation and Infrastructure
Subcommittee on Aviation
United States House of Representatives

For Release on Delivery
Expected at               Challenges in
10:00 a.m. EDT
Wednesday
July 29, 2009
                          Implementing
CC-2009-086
                          Performance-Based
                          Navigation in the U.S. Air
                          Transportation System
                          Statement of
                          Ann Calvaresi Barr
                          Principal Assistant Inspector General
                          for Auditing and Evaluation
                          U.S. Department of Transportation
Mr. Chairman and Members of the Subcommittee:

We appreciate the opportunity to testify today on the Federal Aviation
Administration’s (FAA) efforts to modernize airspace through Area Navigation
(RNAV) and Required Navigation Performance (RNP). These initiatives are
cornerstones of the Next Generation Air Transportation System (NextGen), which
will move today’s ground-based air traffic control system to a more efficient one that
relies on satellite navigation and on-board aircraft avionics. The potential benefits of
RNAV and RNP are significant and include shorter, more direct flight paths;
improved airport arrival rates; enhanced controller productivity; fuel savings; and
reduced aircraft noise.

FAA and industry plan to invest billions of dollars over the next decade to bring about
NextGen initiatives. To better ensure taxpayer dollars and private sector investments
are used efficiently, FAA will need to carefully coordinate these efforts with industry
stakeholders and within its own lines of business.

RNAV and RNP are key to NextGen’s success, but fundamental issues need to be
addressed. While RNAV and RNP have considerable industry support, some
stakeholders are dissatisfied with the Agency’s overall method for implementing these
initiatives. Of particular concern is FAA’s practice of laying most “new” routes over
existing routes and the fact that air carriers are not using them. Stakeholders and FAA
also disagree on the potential role, responsibilities, and oversight of non-Government
third parties in speeding the adoption of RNP. Regardless of who develops the new
procedures, FAA must provide one level of safety oversight.

Today, I will cover two areas: (1) barriers and challenges affecting the successful
implementation of RNAV and RNP and (2) the role and oversight challenges
associated with use of third parties in developing new procedures. I will conclude
with actions needed to ensure the safe and effective implementation of RNAV and
RNP.




                                                                                      1
OVERVIEW AND BACKGROUND ON RNAV AND RNP
An important part of NextGen is the establishment of new routes and procedures that
rely on satellite-based navigation. FAA first implemented RNAV in 2001 and RNP in
2005 as a way to increase national airspace capacity and efficiency. Since 2001, FAA
has published 270 RNAV approach and departure procedures, 159 RNAV routes, and
148 RNP approach procedures. 1 FAA’s goals are to annually publish 50 RNAV
approach and departure procedures, 12 RNAV routes, and 50 RNP approach
procedures through 2013.

There are important differences between conventional route procedures and
RNAV/RNP. Traditionally, aircraft have flown conventional routes adhering to the
ground-based navigational infrastructure, which requires aircraft to fly in a zigzag
pattern so that they can be tracked by air traffic control radar systems. RNAV and
RNP increase airspace efficiency by providing more direct paths (see figure).

               Figure. Conventional, RNAV, and RNP Navigational Methods




    Source: FAA

For RNAV, aircraft use an on-board Global Positioning System (GPS) to fly any
desired flight path without the limitations imposed by ground-based navigation
systems. RNP is a form of RNAV that adds monitoring and alerting capabilities to
the cockpit to guide aircraft more precisely to and from airports. Currently, RNP
routes are only available to specially equipped aircraft and trained aircrews, and air
carriers must meet certain qualifications to fly these RNP approaches. 2

Alaska Airlines pioneered RNP in 1996 to address unique terrain and weather
challenges it faced in Juneau, Alaska. RNP-equipped aircraft allowed pilots to safely
navigate between mountains on either side of the Gastineau Channel even during

1
    While FAA has implemented RNP procedures for arrivals, it has not yet developed procedures for departures or routes
    that link city pairs.
2
    This is referred to as RNP Authorization Required, or “RNP AR.”


                                                                                                                     2
times of low visibility—this reduced the number of canceled and diverted flights into
Juneau during bad weather. Alaska Airlines has implemented about 20 special RNP
procedures, with annual average savings of about $14 million. It was not until several
years later that FAA implemented the first public RNP procedure.

RNP procedures can be developed as public or special procedures. Public procedures
are available to all users that have properly equipped aircraft; special procedures are
only available to a specific air carrier for whom the procedure was designed. While
FAA allows special procedures, these have historically been implemented only on a
limited basis for commercial airlines. Of the more than 500 RNAV and RNP routes
and procedures, 148 are public RNP procedures and 30 are special RNP procedures.
Table 1 provides details on the differences between public and special procedures.

                            Table 1. Public and Special RNP Procedures

       Requirements                   Public RNP Procedures                         Special RNP Procedures

Who Can Use the                 Available to all users that have             Only available for a specific air
Procedure?                      properly equipped aircraft                   carrier for which the procedure was
                                                                             designed
Publication/Federal             Federal Register in accordance               Not Published/Non-Part 97
Aviation Regulation             with 14 C.F.R. Part 97/a
Number of                       148 RNP AR                                   30 RNP AR
Procedures
Who Develops and                Currently: FAA’s Office of Aviation          FAA’s Office of Aviation System
Implements?                     System Standards                             Standards and private industry
                                Proposed: Third parties                      procedure developers (airlines and
                                                                             third parties)
Who pays?                       FAA                                          Airspace user and FAA/b

/a     Standard Instrument Procedures, 14 C.F.R. § 97 (1963). This FAA regulation governs the development of
       standard instrument approach procedures to airports in the United States.
/b     Airspace users usually pay for special procedures, but FAA may provide this service to industry in some
       cases.

Other countries such as Canada, Australia, China, and New Zealand have
implemented RNP procedures in recent years. For example, 18 RNP departures and
approach procedures deployed at the airport in Brisbane, Australia, have been flown
more than 15,000 times and have provided measurable benefits, such as fuel savings
and reduced flight time, to the airlines that flew them.

Significant numbers of U.S. commercial transport aircraft are already equipped for
some level of performance-based navigation.3 Almost all U.S. air carriers are
equipped to perform RNAV at the Nation’s top 35 airports; however, the percentage

3
     FAA defines performance-based navigation (PBN) as a framework for defining navigation requirements that can be
     applied to air traffic route, instrument procedure, or defined airspace. PBN comprises both RNAV and RNP and provides
     a basis for the design and implementation of flight paths that can enhance capacity.


                                                                                                                        3
of equipage for the more demanding RNP capability is much lower, and the number
of aircraft and flight crews equipped and authorized to fly those procedures has
lagged behind. For example, 10 major air carriers 4 have 97 percent of their aircraft
equipped with RNAV capability, but only 47 percent are equipped with RNP
capability, and just 23 percent are authorized to fly RNP procedures.

FAA and industry representatives believe RNP can provide several high-value
operational improvements, particularly at or around congested airports. For example,
RNP can improve capacity and arrival efficiency through the use of parallel
approaches to closely spaced runways and approaches to converging runways. RNP
can also de-conflict operations at adjacent airports (e.g., Chicago O’Hare and Chicago
Midway) through curved, final approaches to runways. Moreover, aircraft currently
use a staggered, “stair-step” pattern on approach for landing, but RNP can allow a
more level approach while enabling aircraft to avoid obstacles, such as buildings, near
the airport.

FAA FACES SIGNIFICANT CHALLENGES WITH RNAV/RNP
IMPLEMENTATION
FAA has faced significant challenges implementing RNAV and RNP, and
consequently, has not fully achieved the measurable benefits of these procedures.
First, FAA’s method for implementing new RNP procedures relies heavily on existing
routes; as a result, air carriers are not using them. Second, continuing operational
issues and concerns over workload and training for controllers and pilots have limited
the use of RNAV procedures at some airports. Finally, FAA has not yet made
adjustments to key programs such as airspace redesign efforts and modernization
projects that will be needed to deliver the expected benefits of RNAV and RNP
procedures.

Relying on Existing Routes Has Yielded Little Measurable Gain
While FAA has met or exceeded its annual RNP production goals, most of the RNP
procedures it has rolled out have been overlays of existing routes because the
Agency’s goals primarily focus on the number of procedures produced. While
overlaid routes can be deployed more quickly because they do not have to go through
an extensive environmental review, they do not maximize the benefits that can be
achieved through RNP procedures. As a result, industry is dissatisfied with the
overall quality of RNP procedures, and they are not widely used.

Further, FAA has not established an effective process for analyzing and measuring the
benefits of new procedures from a “before–and-after” perspective. FAA program

4
    Air Tran Airways, Alaska Airlines, American Airlines, Continental Airlines, Delta Air Lines, Jet Blue Airways,
    Northwest Airlines, Southwest Airlines, United Airlines, and US Airways.


                                                                                                                4
officials also do not track data that would show how often airlines use RNP
procedures or reasons why they are not being used. While FAA has implemented
RNP at sites recommended by a joint FAA and industry group, the sites were based
on prioritization work accomplished several years ago. FAA simply followed the list
without performing updated analyses to ensure the procedures would be beneficial.
For example, FAA designed and implemented a procedure in Palm Springs; yet, no
air carrier has used the procedure since it was implemented because its design did not
provide airlines with any measurable benefits, such as a shorter flight path or the
ability to fly at lower altitudes.

One RNP procedure deployed at Reagan Washington National Airport has
demonstrated some benefits. The procedure allows pilots to follow a more precise
path—not available through conventional or RNAV procedures—along the Potomac
River while avoiding restricted airspace and obstacles. While some air carriers are
approved to use this procedure, only a few are actually using it because the procedure
is designed specifically for a limited number of aircraft types.

FAA has also not updated its air traffic policies for controllers and pilots on how to
use these procedures at airports with parallel runways. Due to current air traffic
provisions, 5 controllers are not yet allowed to accept an RNP procedure into the
National Airspace System (NAS) at some airports with parallel runways. For
example, at the Atlanta Hartsfield International Airport, FAA implemented 10 RNP
procedures in May 2007 hoping that updated air traffic policies would be in place.
Absent updated policies, controllers have never cleared an aircraft for landing using
an RNP procedure in Atlanta. FAA is still evaluating whether the policies can safely
be updated through a project at George Bush Intercontinental Airport in Houston, but
this is a lengthy process that has already taken more than 4 years. FAA expects to
complete this evaluation by the end of calendar year 2009.

Even if FAA updates its policies and determines that RNP can be allowed at airports
with parallel runways, airline representatives told us they would not use the RNP
procedures at Atlanta because they are overlays of existing conventional procedures,
thus providing little or no added benefits other than a backup in the event the ground-
based navigation aid shuts down.

Operational Issues Limit the Use of RNAV/RNP Procedures
There have been significant benefits from RNAV procedures at certain airports such
as Atlanta, Dallas Fort Worth, and Phoenix. For example, RNAV departure
procedures implemented at Atlanta in 2006 have increased throughput and reduced
delays with a measured capacity gain of 9 to 12 departures an hour. Fewer delays
have resulted in cumulative fuel savings of about $105 million for the operators who

5
    FAA Order JO 7110.65, Air Traffic Control Handbook, paragraphs 5-9-6 and 5-9-7 prescribe aircraft separation standards
    required for parallel dependent and simultaneous independent operations.


                                                                                                                        5
flew these procedures through 2008. However, current controller and pilot training
continues to limit the full use and effectiveness of these procedures. For example, at
Dallas Fort Worth and Atlanta, there have been some recent operational problems
related to pilots programming incorrect RNAV departure waypoints into the Flight
Management System (FMS) and thus not flying the correct path.

To mitigate this problem, FAA has developed a process for pilots to read back the
runway assignment and first waypoint before taking off. This process was
implemented at Dallas Fort Worth on June 1, 2009, and will be implemented NAS-
wide once a further safety study is completed. FAA estimates that it will be collecting
data for another 30 to 60 days before deciding whether to change the process
nationwide.

A longstanding operational concern is the potential impacts of “mixed equipage”
where controllers will be expected to manage aircraft with different capabilities
seeking to exploit different procedures. Mixed equipage presents a major challenge
for the transition to NextGen. Experts believe that between 80 and 100 percent of
aircraft at any given location will need to be equipped with new NextGen systems to
realize benefits and limit the potential for introducing new hazards. Assessing and
addressing the impacts of mixed equipage are also important for several efforts that
rely on aircraft equipage, including RNAV/RNP, data link communications for
controllers and pilots, and Automatic Dependent Surveillance-Broadcast (ADS-B). 6

A prolonged mixed-equipage environment is not desirable and will likely increase—
not decrease—controller workload. This is one reason why some believe incentives
will be needed to spur airlines to purchase and install new avionics. In the interim,
FAA needs to develop plans to mitigate differences with aircraft equipage. This
includes developing effective training for controllers and pilots and adjusting existing
air traffic control systems. FAA may also have to segregate specific airspace for
properly equipped aircraft.

New Procedures, Airspace Redesign Efforts, and Modernization Projects
Are Not Operationally Integrated
As we noted in March of this year, FAA will need to manage capacity-enhancing
initiatives as portfolios to deliver benefits because new systems, new procedures, and
airspace changes are interdependent. 7 To date, FAA has not developed a plan to
effectively manage and budget for the elements necessary to deliver RNP benefits at
already congested airports. This is particularly important as FAA shifts away from
overlays of existing routes to more complex and demanding ones that can enhance the


6
    ADS-B is a surveillance system that uses information from satellite-based systems to identify and track aircraft positions.
7
    OIG Testimony Number CC-2009-044, “Federal Aviation Administration: Actions Needed To Achieve Mid–Term
    NextGen Goals,” March 18, 2009. OIG reports and testimonies are available on our website: www.oig.dot.gov.


                                                                                                                             6
flow of air traffic. Greater reliance on RNAV/RNP will force FAA to reevaluate
budgets and plans for several key efforts.

     Airspace Redesign: Airspace redesign projects are critical to realize the full
      benefits of runways and can enhance capacity even without new infrastructure.
      Currently, FAA is pursuing six airspace projects nationwide, 8 including a major
      but controversial effort to revamp airspace in the New York/ New
      Jersey/Philadelphia area. This project is undergoing litigation and has drawn
      public concerns about its environmental impact on the area. FAA plans to spend
      $11.2 million9 in airspace redesign efforts in fiscal year 2009. A level of
      coordination between airspace redesign projects and RNAV/RNP procedures—
      that currently does not exist—will be essential as procedures move beyond
      overlays and local operations to networking routes between city pairs such as
      Chicago, Illinois, and Washington, D.C. Also, FAA will have to reassess its
      budget and plans for airspace redesign efforts to ensure adequate and stable
      funding.

     Air Traffic Control Modernization Projects: FAA will have to modify the
      automation systems, such as controller displays and related computer equipment,
      that controllers rely on to manage traffic in the vicinity of airports. According to
      FAA and others, a software enhancement that will allow controllers to merge and
      space aircraft is needed to obtain the benefits of new RNP procedures for
      enhancing airport capacity. This will also help controllers to safely manage traffic
      in a mixed-equipage environment. However, FAA has only begun planning and
      developing requirements for this capability; therefore, the cost and schedule
      parameters needed to adjust existing systems have not been baselined.

     Controller Training Programs: FAA lacks extensive and up-to-date training
      programs to help controllers understand and manage RNAV/RNP aircraft. This is
      particularly important given the large number of developmental controllers in the
      system. FAA’s training on new procedures consists of briefings rather than
      formal courses on RNAV/RNP. As FAA moves toward implementing more
      advanced RNP routes, extensive training will be required for controllers to gain
      confidence in their ability to use RNAV/RNP. As one industry expert pointed out,
      simulators will be needed to support the training of the controller workforce.
      Without adequate controller training, RNAV/RNP cannot be successfully
      introduced.




8
    These projects are (1) New York/New Jersey/Philadelphia Redesign (2) Chicago Airspace Project, (3) Houston Area
    Traffic System, (4) Western Corridor, (5) Oceanic, and (6) High Altitude Airspace Management.
9
    Of the $11.2 million funding, $8.2 million was received from the Agency’s operations account and $3.0 million was
    received from its capital account.


                                                                                                                   7
FAA HAS NOT CLEARLY DEFINED THE ROLE OF THIRD PARTIES
AND FACES CHALLENGES IN ENSURING EFFECTIVE SAFETY
OVERSIGHT
The role of third parties in developing RNAV/RNP procedures is unclear, and
industry representatives are skeptical of FAA’s ability to deliver the more complex
procedures in a timely manner. Any use of third parties will inevitably carry a new
layer of safety concerns, and FAA has yet to establish a coordinated oversight
framework to mitigate potential operational risks.

The Role of Third Parties is Unclear, and Stakeholders’ Views of
Benefits Differ
FAA entered into agreements in 2007 with two non-Governmental third parties to
design, integrate, test, and validate public RNP procedures. According to FAA, the
intent of the third-party initiative was to provide industry or the international
community with FAA-qualified vendors who could develop procedures within and
outside the United States where existing infrastructure was lacking or where the new
procedures would not create complex integration and implementation issues.

Yet, FAA has never clearly communicated the potential third-party roles and
responsibilities to airspace users. FAA does not plan to rely on third parties to help
speed the adoption of RNP procedures for NextGen. FAA program officials told us
that they do not need assistance from third parties in domestic airspace because the
Agency has met or exceeded its goals for the number of procedures produced and has
provided airlines with all the requested procedures. However, airlines disagree with
this conclusion and continue to believe third parties could help speed up the adoption
of quality RNP procedures.

In addition, the business case for third parties to develop public procedures for
specific airlines does not appear to be workable. Third parties have not developed
these in the past, and the extent to which air carriers will hire them to do so is still
unknown. It will depend on whether air carriers believe it is cost beneficial to pay
third parties to develop public RNP procedures. Industry representatives we
interviewed questioned whether air carriers will be able to justify the cost for third
parties to develop these types of procedures because they would benefit other carriers
and can be obtained from FAA at no cost. In addition, representatives at one of the
third-party vendors told us the agreement with FAA is not cost beneficial for them
because it specifies that third parties will be responsible for maintaining the
procedures, which increases their liabilities and risks.

The third-party process for developing special procedures is somewhat different.
FAA has had a process in place for years in which third parties have developed
special procedures as requested by specific operators. However, FAA approved these

                                                                                      8
only on a limited, case-by-case basis. RNAV/RNP program officials are now
concerned that air carriers will increasingly request third parties to produce special
procedures, which are tailored to the requesting airline’s needs, rather than rely on
public procedures produced by FAA. FAA states that an increasing number of special
procedures will further complicate the workload of air traffic controllers and increase
the complexity of the NAS.

As noted by industry, FAA can mitigate this problem by seeking ways to transition
specials into public procedures that could be used by any airline that chooses to equip
their aircraft and train flight crews. Recognizing that there may be a legitimate need
for special procedures at some locations, FAA needs to ensure that its Flight
Standards and Air Traffic offices coordinate at a national level to safely integrate any
new special procedures into the NAS, especially if special procedures are more
widely adopted going forward.

The role of third parties in moving forward with NextGen is a policy call for
Congress. The nature and extent of this role hinges on the in-house skill mix and
expertise of FAA and whether the Agency can deliver the more demanding
procedures called for by industry. FAA could rely on third parties for specific
projects based on a contractual relationship. As FAA points out, third parties could
provide valuable expertise, capabilities, and resources that could complement FAA’s
efforts in the short and long term. However, third parties should not be relied on to
conduct safety assessments of the procedures they develop.

FAA Has Not Established a Coordinated Oversight Framework for Third
Parties
Absent clear roles and responsibilities, it is difficult at best for FAA to establish a plan
to oversee third parties. To its credit, FAA has drafted guidance for industry on the
authorization process used to design and develop RNP procedures and has begun
developing an oversight plan. However, FAA will need to implement a formal
oversight program to ensure that third parties properly follow FAA design criteria and
procedures for key areas. These include flight validation, obstacle assessments,
integration of the procedure into the NAS, and procedure maintenance. Without this
foundation, the potential for operational problems and safety risks increases.

Past problems with implementation of new procedures show that safety issues can
occur. We identified key areas in which FAA will need to establish strong oversight
controls once it completes efforts to qualify these vendors. Based on an internal audit
performed in 2007, FAA determined that the Agency had not performed required
procedure maintenance reviews for 100 percent of the procedures sampled. These
reviews are important because they check for routine maintenance of the procedures,
including checking for new ground obstacles and other changes along flight paths.



                                                                                          9
Regardless of who develops the procedures, FAA must provide one level of safety
oversight and address organizational barriers and fragmented efforts that exist
between Agency lines of business. For example, although FAA’s Flight Standards
office oversees the process for developing procedures by FAA and third parties, it
does not have the authority to enforce penalties for non-compliances that it finds with
the procedures developed internally by FAA employees. That authority lies within
the Air Traffic Safety Oversight Division. As shown in table 2, several offices within
FAA’s Aviation Safety and Air Traffic organizations play a role in ensuring the safe
development and integration of new flight procedures into the NAS.

   Table 2. Roles and Responsibilities in the Development and Oversight of
                            Flight Procedures

    FAA Office                                    Responsibilities

 Air Traffic Organization

RNAV/RNP Group             Implements and integrates RNAV and RNP routes and
                            procedures into the NAS

Aviation System            Designs and develops public and special instrument flight
Standards                   procedures (IFP)
                           Operates a fleet of flight inspection aircraft for airborne
                            evaluation of IFPs and maintains public procedures
Air Traffic                Evaluate and use the procedures operationally
Facilities                 Train controllers on new procedures
 Aviation Safety

Flight Standards           Develops and evaluates design criteria for IFPs
Service                    Oversees flight inspection policy and all IFP development, both
                            FAA and third-parties
                           Approves special procedures
                           Enforces non-compliance penalties for procedures developed by
                            third parties
Air Traffic Safety         Independently oversees the Air Traffic Organization
Oversight                  Audits Air Traffic facilities, including the Aviation System
Services                    Standards (office that develops instrument flight procedures)
                           Enforces non-compliance penalties for procedures developed
                            internally

FAA cannot effectively determine its oversight staffing needs because the extent that
airlines will use third parties is unknown. FAA officials told us that staffing of
14 personnel in its oversight office is currently sufficient; however, it has yet to
authorize the two third parties for developing RNP procedures or determine the
demand for their services. If FAA increases the number of procedures produced each
year, it will have to reassess staffing needs.

                                                                                            10
CONCLUSIONS AND ACTIONS NEEDED TO ENSURE SAFE AND
EFFECTIVE IMPLEMENTATION OF RNAV/RNP
NextGen is an important initiative to enhance capacity, reduce delays, and
fundamentally change the way air traffic is managed, and RNAV and RNP are critical
to its success. Nearly 40 percent of the 123 operational improvements under review
by a joint Government/industry taskforce on NextGen involve RNAV/RNP. Yet,
FAA has not fully laid the groundwork in areas such as developing RNP procedures
that provide measurable benefits, ensuring air traffic policies keep pace with new
aircraft technology, and making the necessary adjustments to air traffic control
systems to accommodate these new procedures. In addition, because FAA has not
clearly defined the roles and responsibilities of third parties, it will be difficult to
establish an effective oversight framework.

We look forward to the task force’s recommendations by the end of this summer and
will work with FAA and Congress to continually monitor the following areas to
ensure successful implementation of RNAV/RNP.

  Aligning FAA’s flight plan goals with producing quality RNP procedures that
   have significant benefits rather than focusing on the number of procedures.

  Establishing priorities for new routes and funding requirements for related
   airspace redesign projects and systems that controllers rely on to manage traffic.

  Performing cost-benefit analyses in close coordination with all stakeholders before
   and after implementing RNP procedures.

  Ensuring air traffic controllers and pilots are aware of and trained on procedures
   before they are implemented.

  Developing and establishing a policy on how and to what extent third parties will
   be used to help support FAA’s NextGen efforts and ensure an effective oversight
   approach.

Mr. Chairman, this concludes my prepared statement. I would be happy to address
any questions that you or other Members of the Subcommittee may have.




                                                                                     11
